                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



September 30, 2014

Robert M. Deacy, Sr., LP 5D-C

FINAL REPORT – EVALUATION 2014-15217 – TVA’S COAL COMBUSTION PRODUCT
MANAGEMENT


This review was initiated as part of the Tennessee Valley Authority’s (TVA’s) Office of the
Inspector General’s (OIG) commitment to provide oversight of Coal Combustion Product
(CCP) management. The objective of our review was to determine if TVA is meeting its
commitments for CCP management.

We found TVA is meeting its commitments for CCP management. In order to address
these commitments, TVA has taken a number of steps. Specifically, we found TVA has
implemented programmatic improvements, stabilized its coal ash storage facilities, and
improved oversight of CCP management. Additionally, we found TVA is taking steps to
become an industry leader in CCP management.

BACKGROUND

On Monday, December 22, 2008, between 12 midnight and 1 a.m., a portion of the dike
for an ash containment area at Kingston Fossil Plant failed. Approximately 5.4 million
cubic yards of fly ash and bottom ash were released onto land and into adjacent
waterways, including the Emory River that flows into the Clinch River near the plant. The
approximate 1 billion gallons of coal combustion waste slurry covered about 300 acres of
which 8 acres were privately owned lands, not owned or managed by TVA. The impacts
of the coal ash spill destroyed and/or damaged (1) the railroad adjacent to the plant;
(2) real and personal property; and (3) community infrastructure, including roads and
utilities. TVA took immediate and ongoing actions to address the needs of those affected,
clean up the spill, and protect human health and the environment. TVA also took action
and made commitments to restore the area and regain public confidence.

TVA’s OIG committed to providing ongoing oversight where warranted and completed
several reviews pertaining to the initial emergency response, root cause analysis,
environmental monitoring, and impoundment stability.1
1
    Inspection 2008-12283-01 – Kingston Fossil Plant Ash Slide Interim Report;
    Inspection 2008-12283-02 – Review of the Kingston Fossil Plant Ash Spill Root Cause Study and
    Observations About Ash Management;
    Inspection 2008-12283-07 – Review of the Environmental Sampling and Monitoring Plans for the Kingston
    Ash Spill; Inspection 2009-12910-01 – Peer Review of Stability Analysis of Dike C at Kingston Fossil Plant;
    Inspection 2010-13034 – Review of TVA’s Kingston Ash Spill Clean-Up and Recovery Efforts; and
    Inspection 2011-14109 – Review of Non-Time-Critical Kingston Ash Recovery Project Activities.
      WARNING: ThIs document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
Robert M. Deacy, Sr.
Page 2
September 30, 2014



CCP is residue that remains after pulverized coal is burned. CCP consists of three main
by-products: fly ash, bottom ash, and gypsum. Fly ash is composed mainly of non-
combustible inorganic material contained in coal and typically consists of fine particles
entrained in the combustion exhaust gas. Bottom ash is comprised of the incombustible
coarse particles that settle to the bottom of the combustion chamber of a boiler. Gypsum
is hydrated calcium sulfate, a by-product of clean air controls.

Following the Kingston ash spill on July 21, 2009, TVA’s Board of Directors adopted
resolutions, one of which was to provide a formal Fossil Remediation Plan covering not
only Kingston, but also all other fossil ponds including all mitigation plans or remediation
actions in process, prior to August 20, 2009.

OBJECTIVE, SCOPE, AND METHODOLOGY

This review was initiated as part of the OIG's commitment to provide oversight of CCP
management. The objective of our review was to determine if TVA is meeting its
commitments for CCP management. The scope of this review includes TVA commitments
made regarding CCP management following the Kingston Ash Spill.

In order to achieve our objective, we (1) reviewed documentation to identify TVA’s CCP
commitments and (2) interviewed key Civil Projects and CCP management personnel and
reviewed documentation to determine if TVA is meeting its CCP management
commitments.

This review was performed in accordance with the Council of the Inspectors General for
Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

FINDINGS

We found TVA is meeting its commitments for CCP management. We identified four areas
of CCP management that TVA committed to improve. The areas include (1) programmatic
improvements, (2) storage stability, (3) oversight, and (4) industry leadership. Specifically,
we identified the following commitments made by TVA related to Civil Projects and CCP
Management:

   On July 21, 2009, TVA’s Board of Directors adopted resolutions that authorized and
    directed TVA Senior Management to provide a Formal Fossil Remediation Plan
    covering not only Kingston, but all other fossil ponds to eliminate identified deficiencies
    in systems, standards, and controls.
   On July 28, 2009, Tom Kilgore, former President and Chief Executive Officer of TVA,
    testified before the U.S. Congress and outlined TVA commitments to ensure stability of
    storage facilities, aggressive and rigorous inspections processes, standardization in
    engineering, design, construction of facilities, and standardization in handling, storage,
    and disposal of coal combustion by-products.
   On August 20, 2009, TVA presented its remediation plan to the board that aimed to
    position TVA as an industry leader for coal combustion product operations. The
    remediation plan outlined a plan to eliminate existing wet ash and gypsum storage at

                              TVA RESTRICTED INFORMATION
Robert M. Deacy, Sr.
Page 3
September 30, 2014



     all fossil plants and high-hazard classifications for TVA ash and gypsum
     impoundments, and convert all wet fly ash, bottom ash, and gypsum operations to dry
     ash handling.

In order to address these commitments, TVA has taken a number of steps. Specifically,
we found TVA has implemented programmatic improvements, stabilized its coal ash
storage facilities, and improved oversight of CCP management. Additionally, we found
TVA is taking steps to become an industry leader in CCP management.

Programmatic Improvements
TVA has made programmatic improvements by implementing standard policies and
procedures addressing CCP management. Prior to the Kingston ash spill, TVA had no
policies or procedures regarding the handling and storage of coal combustion by-products,
resulting in management at each fossil plant implementing their own strategies for
handling and storing coal combustion by-products.

In the aftermath of the Kingston ash spill, TVA hired URS Corporation2 to develop
extensive coal combustion by-product policies and procedures for TVA. URS developed a
Master Programmatic Document that consisted of three volumes designed as a
management tool to address key areas such as:

    Engineering design.
    Environmental compliance.
    Safety.
    Training.
    Data management.
    Procedural requirements for construction, inspection, monitoring, and operation of the
     selected coal combustion by-product streams and provide guidance for effective
     management and planning.

According to TVA, the Master Programmatic Document is no longer in use and has since
been superseded by Strategic Business Unit, Standard Programs and Processes (SPP)
that include:

    GC-SPP-27.1.1, Coal Combustion Products Design and Evaluation of CCP Storage
     Facilities.
    GC-SPP-27.4.1, Coal Combustion Products Inspection of CCP Storage Facilities.
    GC-SPP-27.2.1, Coal Combustion Products Construction of CCP Storage Facilities.
    GC-SPP-27.5.1, Coal Combustion Products Instrumentation and Monitoring of CCP
     Storage Facilities.
    GC-SPP-27.3.1, Coal Combustion Products Operations, Maintenance, and Repair of
     Impoundments.


2
    According to its website, URS Corporation is a leading provider of engineering, construction, and technical
    services for public agencies and private sectors companies around the world.
                                    TVA RESTRICTED INFORMATION
Robert M. Deacy, Sr.
Page 4
September 30, 2014



    GC-SPP-27.6.1, Coal Combustion Products Emergency Preparedness for CCP
     Storage Facilities.

These SPPs are used to govern TVA CCP storage facility:

    Design and evaluation.
    Safety inspections.
    Instrumentation and monitoring related to seepage and stability.
    Construction.
    Operations & Maintenance requirements.
    Emergency preparedness.

The facilities covered in these SPPs include wet ash and gypsum ponds, dry ash, and
gypsum stacks constructed over abandoned ash ponds, stilling ponds, miscellaneous
ponds, drainage basins, ditches, and dredge cells.

Coal Ash Storage Facility Stability
TVA has stabilized its coal combustion by-product storage facilities. TVA commissioned
the engineering firm Stantec, Inc.,3 to inspect, evaluate, and make recommendations to
improve the stability of all coal combustion by-product storage facilities at all of TVA’s
fossil plants. Stantec began its work in January 2009 in a four-phase approach:

    Phase 1 consisted of geotechnical engineering work that was broken down into two
     parts. Phase 1a consisted of onsite interviews and site walkovers. Phase 1b
     consisted of interviews with plant personnel and completion of field activities as well as
     the notation of the extent of seepage, slope instability, erosion, sparse vegetation,
     trees, animal burrows, poor surface drainage and other relevant features. Phase 1
     was completed on June 24, 2009.
    Phase 2 consisted of detailed engineering studies and analysis at each facility
     including (1) geotechnical explorations; (2) stability, hydrologic, hydraulic analysis;
     (3) remediation engineering and workplan development; and (4) conceptual designs.
     Stantec submitted 16 final reports resulting from Phase 2 work in 2010.
    Phase 3 included remediation design and construction. TVA assessed its ash storage
     facilities against dam safety guidelines with a goal of complying with dam safety
     guidelines where possible. The “as found” factors of safety for the various disposal
     facilities included ten impoundments with factors of safety at less than 1.3. The global
     engineering safety factor (1.3) means the forces keeping the impoundment in place
     are 1.3 greater than those that would move it. TVA adopted the US Army Corps of
     Engineers long-term, minimum target factor of safety criteria of 1.5 and achieved
     global stability of 1.5 on all initial CCP program facilities by August 2011.


3
    Stantec provides professional consulting services in planning, engineering, architecture, landscape
    architecture, surveying, environmental sciences, project management, and project economics for
    infrastructure and facilities projects.
                                   TVA RESTRICTED INFORMATION
Robert M. Deacy, Sr.
Page 5
September 30, 2014



    Shortly after the Kingston ash spill, the Environmental Protection Agency (EPA)
    initiated a nationwide assessment of CCP management facilities. TVA Dam Safety
    and CCP engineers performed a preliminary hazards potential assessment for CCP
    facilities and submitted this information to the EPA. Four fossil sites had
    impoundments classified as high hazards. These sites were Bull Run, Colbert,
    Cumberland and Widows Creek. The hazard ratings were based on an evaluation of
    what the damage would be if the dam failed as opposed to the likelihood of failure.
    According to TVA, changes were completed in 2011 that resulted in eliminating these
    high-hazard classifications.

   Phase 4 included programmatic improvements, specifically Dam Safety Inspection
    Training and the development of programmatic documents. More information
    regarding development of programmatic documents can be found above. Initially,
    Stantec provided Dam Safety Training to all CCP individuals that included elements
    such as (1) roles and responsibilities, (2) failure modes, (3) case histories, (4) specific
    plant CCP features, (5) design philosophy, and (6) an inspection program. Training
    was provided at each fossil plant. As of 2010, more than 300 individuals had received
    training. However, TVA identified this training was delivered inconsistently. As a
    replacement, TVA initiated refresher training in 2012 to all CCP personnel.
    Additionally, as a practical replacement for the Stantec training, TVA began
    administering a site training called Ash 101 to contract personnel handling ash.
    According to TVA, CCP policies and procedures are currently being revised. Upon
    completion, TVA will initiate a refresher course for personnel working on CCP
    activities, including engineering, routine operations, construction, and project
    management.

Improved Oversight of Coal Ash Management
TVA has improved oversight of CCP management. TVA has made organization changes,
completed inspections, and developed 20 CCP initiatives.

In fiscal year (FY) 2009, the Clean Strategies and Project Development organization was
established with a stand-alone budget to help position TVA to meet the many challenges
following the environmental event at Kingston. To strengthen the focus on TVA’s coal
combustion by-products and clearly establish accountability, the Coal Combustion
Products Projects and Engineering Group, and the Coal Combustion Management Group
were created within Clean Strategies and Project Development. More recently, TVA has
established roles and responsibility by having all CCP activities under the direction of one
organization–Civil Projects and CCP Management. CCP management is separate from
fossil plant management and the Senior Vice President, Projects (formerly Vice President,
Clean Strategies and Project Development) continues to manage all the funding.

Within the Civil Projects and CCP organization is a Dam Safety Construction group that
implements the upgrades on TVA’s dams. TVA decided to include coal ash
impoundments under the Dam Safety Program to increase governance and utilize
expertise of TVA’s Hydro Review Board in assessing the safety and stability of coal ash
impoundments. The Hydro Review Board is now called the Independent Review Board
and is part of TVA’s Dam Safety Program.


                              TVA RESTRICTED INFORMATION
Robert M. Deacy, Sr.
Page 6
September 30, 2014



TVA Generation Construction GC-SPP-27.4.1, Coal Combustion Product Inspection of
CCP Storage Facilities, governs the performance of safety inspections of active and
inactive impoundments and disposal facilities included on the National Inventory of Dams
as maintained by TVA’s Dam Safety Officer, owned and operated by TVA. The inspection
program consists of Informal, Intermediate (Annual) Inspections, Formal Inspections, and
Special Inspections. Intermediate inspections are conducted approximately annually and
at least every 15 months. Formal Inspections are conducted at intervals not exceeding
5 years. Special inspections are conducted at active ash ponds following impoundment
instability incidents, significant earthquakes, unusually large floods, sabotage, other
potentially damaging events, or if unusual conditions are observed during routine
inspections. We reviewed TVA’s annual inspections for all 11 plants for each of the last
four years or formal inspections when they were completed. In addition, TVA has a
schedule to complete formal inspections at the remaining plants.

As part of its remediation plan, TVA also developed an improvement plan to address gaps
in training, communications, quality assurance/quality control program, and other
management tools. TVA developed 20 CCP Initiatives in response to findings from the
2008-2009 AECOM, McKenna Long & Aldridge LLP, and OIG audits.4 The 20 CCP
Initiatives addresses areas of (1) standard policies, procedures, and processes;
(2) organization, roles, and responsibilities; (3) budgeting and planning; (4) training;
(5) management reporting and communications; (6) measures and metrics; and (7) best
practices and industry leadership. Each initiative has an objective, expected benefit,
owner(s), and related audit finding(s). Additionally TVA tracks progress made/milestones
achieved and recommended ongoing improvement efforts on each initiative.

TVA is Taking Steps to Become an Industry Leader in CCP Management
We found TVA is taking steps to become an industry leader in CCP management. In a
congressional testimony on December 9, 2009, Tom Kilgore, former TVA CEO, made a
commitment that TVA would become an industry leader in CCP management. To address
this commitment, TVA is in the process of completing a $1.5 billion to $2 billion capital
program to improve ash handling. Additionally, TVA is taking steps through its 20 CCP
Initiatives to engage in industry benchmarking and further industry involvement.

We found TVA is in process of completing a $1.5 billion to $2 billion capital program to
improve ash handling. The capital program will fund, among other things, the conversion
of several wet fly ash and gypsum facilities to dry storage collection facilities. We found
TVA developed master strategies that outlined planned dates of conversion and closure
for each facility.

Originally, TVA planned to convert 6 coal-burning plants using wet ash systems to dry fly
ash systems and to convert all 11 fossil plants to dry bottom ash systems. However, this
plan was impacted by Board decisions to shut down some plants. According to TVA,
conversion will continue as planned at Kingston, Bull Run, Gallatin, Cumberland and
Paradise Unit 3. However, Colbert, Widows Creek, John Sevier, Johnsonville, Allen, and
Paradise Units 1 and 2 will shut down and the impoundments closed by 2022, and they
will not be converted. According to TVA, Shawnee is still being studied, and decisions
4
    Prior to, and as a result of, the Kingston ash spill, independent assessments of TVA CCP
    facilities were conducted by the TVA OIG, McKenna Long & Aldridge LLP, and AECOM.
                                TVA RESTRICTED INFORMATION
Robert M. Deacy, Sr.
Page 7
September 30, 2014



must still be made, which is a risk for the planned completion date of 2022. According to
TVA, approximately $600 million has been spent as of August 2014 on the capital
program.

The capital program includes closing 18 existing ash and gypsum ponds and stabilization
of CCP facilities. Work covered in the program includes (1) dry storage landfill
construction and dry ash stack expansion; (2) closure of CCP facilities including ash
ponds, chemical ponds, and dredge cell closures; (3) wet-to-dry CCP process conversion
including dewatering facilities and dry fly ash conversion; and (4) CCP facility
stabilization/remediation including buttressing, slope modifications, and seepage, spillway,
and drainage repairs. As mentioned above, TVA completed work to improve stability of all
CCP facilities to a minimum factor of safety rating of 1.5 and eliminated high-hazard
impoundments in 2011.

The table below is a breakdown of the status of planned and completed CCP actions at
each of TVA’s fossil plant.

    Table 1: Status of Planned and Completed CCP Actions at Each Fossil Plant
      Plant                                            Action
                   Closure of the active ash pond during FY2020.
 Allen Fossil
                   Board decision currently has the retirement of the Fossil Plant set for
 Plant
                   December 2018.

 Bull Run Fossil   Fly ash currently managed in a dry fly ash stack.
 Plant             Conversion of the remaining CCPs to dry management during FY2015.

                   Will be dry stacking until planned date of idling in FY2016.
 Colbert Fossil
                   A study is planned in FY2015 to determine future plant state and transitional
 Plant
                   projects required to prepare the plant for retirement/deconstruction.

 Cumberland        Fly ash currently managed in a dry fly ash stack.
 Fossil Plant      Conversion of the remaining CCPs to dry management during FY2020.

 Gallatin Fossil   Conversion to dry fly ash & gypsum management during FY2015-2017.
 Plant             Conversion to dry bottom ash management during FY2018-2019.

 Johnsonville      The plant is forecasted to be idled by December 31, 2016, and then retired.
 Fossil Plant      Wet CCP management is forecasted through December 31, 2016.

                   According to TVA, all four units have been formally retired. All power
 John Sevier       generation from coal fired boilers and CCP production at the plant have
 Fossil Plant      ceased. Demolition is scheduled in FY2016-2017. The Dry Fly Ash stack
                   closure is underway, with completion in FY2015/2016. The Bottom Ash Pond
                   will close in FY2017.




                               TVA RESTRICTED INFORMATION
Robert M. Deacy, Sr.
Page 8
September 30, 2014



      Plant                                            Action
                   Dry fly ash conversion completed FY2011.
 Kingston Fossil
                   Conversion to dry gypsum management complete.
                   Conversion to dry bottom ash management during FY2016.

                   First cell of new landfill will be available in FY2019.
                   A study is planned in FY2015 to determine future plant state and transitional
 Paradise Fossil
                   projects required to prepare Units 1 and 2 for retirement/deconstruction, which
 Plant (PAF)
                   is scheduled for FY2017-2019. According to TVA, fly ash conversion, bottom
                   ash dewatering, and gypsum dewatering is planned for completion for Unit 3 in
                   FY2020.

                   Planned for complete plant closure in FY2025 upon retirement of remaining
 Shawnee Fossil    active units. Shawnee’s ash pond/dry stack complex will also be completed at
 Plant             this time. According to TVA, Shawnee is a risk to completing the $1.5 to
                   $2 billion capital program in 2022.

                   Units 1-6 are idled and are scheduled to be retired by 2015.
 Widows Creek
                   Unit 8 is scheduled for idling in September 2014 and Unit 7 in 2019.
 Fossil Plant
                   Plant demolition studies have commenced.
                   Dredge cell closure is scheduled for 2017, ash pond dewatering in 2020, and
                   ash pond closure in 2021.


TVA has engaged in benchmarking and tracking metrics. TVA engaged several third
parties to compare data points with TVA’s estimates and actual costs for landfill
construction/expansion that (1) provided landfill design and cost information that will assist
TVA in the conversion from wet CCP operations to dry operations and to address
proposed regulations by the EPA governing the landfilling of CCP and (2) developed a
report to serve as the basis for disposal site cost estimates for coal combustion residuals
to be used by utilities as a guideline for preparing high-level evaluations of disposal costs,
based on Subtitle D (nonhazardous waste) regulations as specified in the proposed U.S.
EPA Disposal of Coal Combustion Residuals from electric utilities.

TVA has also benchmarked CCP marketing with other utilities that compares the amount
of CCPs sold in tons versus the percentage sold of what was produced. TVA markets
CCP by-products from 4 of its 11 coal-fired facilities that helps extend the life of existing
landfills. Examples of the way these by-products are used include making abrasives,
roofing products, wallboard, and cement. According to these benchmarks, TVA was a top
ten utility for CCPs sold between 2008 and 2011. Additionally, TVA has begun tracking
metrics on a CCP scorecard that include indicators in (1) General Management,
(2) Facility Health, (3) Operations, and (4) Marketing/Utilization. According to TVA
Management, the metrics have been in place 3 to 4 years. As of July of FY2014, CCP
management (1) was approximately 9 percent ($31.7 million) under its year-to-date
budget of $34.9 million; (2) had no Reportable Environmental Events, Environmental
Notice of Violation, or Environmental Near Misses; and (3) produced a total of
approximately 3.7 million tons of boiler slag, bottom ash, fly ash, and gypsum. TVA
marketed approximately 1 million tons (27 percent) of these by-products for approximately
$3.3 million in revenue.


                              TVA RESTRICTED INFORMATION
Robert M. Deacy, Sr.
Page 9
September 30, 2014



We also found TVA has presented at several CCP conferences, including the American
Coal Ash Association (2014), the World Coal Ash Conference (2013), American Society of
Civil Engineers (2013), Coal-Gen Conference (2014), and Tennessee Society of
Professional Engineers (2013). Additionally, other utilities have reached out to TVA to
discuss its CCP program and tour the Kingston plant.

This memorandum does not include any recommendations and is to be used for
informational purposes only. Accordingly, no response is necessary.

                       -       -     -     -       -      -

Information in this memorandum may be subject to public disclosure. Please advise us of
any sensitive information that you recommend be withheld. If you have any questions or
wish to discuss our observations, please contact Kristin S. Leach, Senior Auditor, at
(423) 785-4818 or Gregory R. Stinson, Director, Evaluations, at (865) 633-7367. We
appreciate the courtesy and cooperation received from your staff during the evaluation.



Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

KSL:FAJ
cc: William D. Johnson, WT 7B-K
    Dwain K. Lanier, MR 3K-C
    Justin C. Maierhofer, WT 7B-K
    Richard W. Moore, ET 4C-K
    R. Windle Morgan, WT 4D-K
    Charles G. Pardee, WT 7B-K
    TVA Board of Directors
    OIG File No. 2014-15217




                              TVA RESTRICTED INFORMATION
